                            SOCIAL SECURITY
                            Office of the Inspector General

                                     June 29, 2011



The Honorable Max Baucus
Chairman, Committee
 on Finance
United States Senate
Washington, D.C. 20510

Dear Mr. Chairman:

In a January 29, 2011 letter, you asked that we assess (1) the Social Security
Administration’s (SSA) ability to meet its 2013 deadline for eliminating the hearings
backlog; and (2) recent trends in processing times of cases at the hearing level.

Thank you for bringing your concerns to my attention. The enclosed report presents the
results of our review. The report highlights various facts pertaining to the issues raised
in your letter. To ensure SSA is aware of the information provided to your office, we are
forwarding a copy of this report to the Agency.

If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                         Sincerely,




                                         Patrick P. O’Carroll, Jr.
                                         Inspector General

Enclosure

cc:
Michael J. Astrue




             SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
   CONGRESSIONAL RESPONSE
          REPORT

 The Office of Disability Adjudication and
Review’s Hearings Backlog and Processing
                  Times

               A-12-11-21192




                 June 2011
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                    Background
OBJECTIVE
Our objectives were to assess (1) the Social Security Administration’s (SSA) ability to
meet its 2013 deadline for eliminating the hearings backlog; and (2) recent trends in
processing times of cases at the hearing level.

BACKGROUND
In a January 25, 2011 letter to the Inspector General, Senator Baucus, Chairman,
Committee on Finance, requested that we assess (1) SSA’s ability to meet its 2013
deadline for eliminating the hearings backlog; and (2) recent trends in processing times
of cases at the hearing level.

In May 2007, the Commissioner of Social Security (COSS) announced SSA’s Plan to
Eliminate the Hearings Backlog and Prevent its Recurrence. As specifically outlined in
its Fiscal Years (FY) 2008-2013 Strategic Plan, SSA plans to reduce the number of
pending cases to a desired level of 466,000, and the average processing time (APT) to
270 days by the end of FY 2013. According to SSA, a pending case level of
466,000 cases would be ideal based on the expected number of administrative law
judges (ALJ) working in the Agency. In its Annual Performance Plan for FY 2012, SSA
has continued to commit its resources to meet the pending case backlog and average
processing time goals.

In July 2010, we issued a report on the status of the hearings backlog 1 in which we
stated SSA would be able to achieve its FY 2013 pending hearings backlog goal if it had
reliably projected (1) hearing level receipts, (2) ALJ availability levels, (3) ALJ
productivity levels, and (4) senior attorney adjudicator (SAA) decisions through 2013. In
that report, we noted that a small variance in these projections would increase SSA’s
targeted number of cases in its 2013 pending hearings backlog.




1
 See SSA Office of the Inspector General (OIG), Congressional Response Report: ODAR’s 2013
Pending Hearings Backlog Plan (A-12-10-20114), July 2010.


ODAR’s Hearings Backlog and Processing Times (A-12-11-21192)                                 1
                                                  Results of Review
Based on SSA’s projections for ALJ productivity, SAA decisions, hearing-level receipts,
and ALJ availability, we continue to believe SSA will be able to achieve its FY 2013
pending hearings backlog goal. However, the margin for meeting this goal has
narrowed since our 2010 report. For instance, a 1-percent decrease in ALJ productivity
or a 1-percent increase in receipts will cause SSA to miss the goal. SSA has a varying
level of influence over the backlog factors used in our calculation. For example, SSA
can influence ALJ productivity and the continuation of the Senior Attorney Adjudicator
initiative. SSA has less influence over the number of hearing-level receipts and funding
for ALJs and support staff. While Congress determines the level of funding for SSA
operations, the Agency still has flexibility in deciding how it allocates funds.

SSA is also making progress on lowering its APT on closed cases and its average age
of pending (AAP) on open cases. For example, since the start of FY 2009, the APT for
closed cases has decreased by 25 percent, from an average of 476 days in October
2008 to 359 days in March 2011. During the same time, the AAP has decreased by
32 percent, to an average of 212 days. The Office of Disability Adjudication and
Review’s (ODAR) efforts under the Aged Case Workload, National Hearing Center, and
Video Hearing initiatives have focused attention on older workloads, which has helped
reduce processing times.

ACHIEVING THE 2013 PENDING HEARINGS BACKLOG GOAL

Based on current projections, ODAR will meet its 2013 pending hearings backlog goal.
However, compared to our previous report, ODAR’s margin for meeting its 2013 goal
has narrowed. Based on estimates from SSA’s FY 2012 budget, we now project the
Agency will have approximately 461,600 pending hearing cases by the end of FY 2013,
which is slightly below the Agency’s goal of 466,000 cases (see Table 1). In our 2010
review, based on estimates from SSA’s FY 2011 budget, we projected that ODAR
would have about 404,600 cases in its backlog by the end of FY 2013.

As in our 2010 review, we based our projections on four key variables that directly affect
the pending hearings backlog: (1) new hearing receipts, (2) available ALJs, (3) ALJ
productivity, and (4) SAA decisions.




ODAR’s Hearings Backlog and Processing Times (A-12-11-21192)                           2
                   Table 1: OIG Pending Hearings Backlog Projections
                               (Based on FY 2012 Budget)
               Workloads/                       FY 2010        FY 2011        FY 2012         FY 2013
                Staffing                         Actual       Projected      Projected       Projected
Beginning Balance1                              722,822        705,367        668,104         595,691
Projected Receipts2                             720,161        777,300        751,700         682,600
ALJs Available3                                   1,154          1,285          1,319           1,313
ALJ Productivity4                                  2.38           2.37           2.35            2.34
Total ALJ Dispositions5                         683,430        761,363        774,913         768,105
SAA Dispositions6                                54,186         53,200         49,200          48,600
Total Dispositions7                             737,616        814,563        830,708         826,553
Year-End Pending8                               705,367        668,104        595,691         461,586

Table Notes:
1. The FY 2011 Beginning Balance figure is from the Case Processing and Management System,
   Caseload Analysis Report. The Beginning Balance figures for FYs 2012 through 2013 are equal
   to the Year-End Pending levels from the prior FYs.
2. The FYs 2011 through 2013 Projected Receipts data were provided by SSA’s Office of Budget,
   Finance and Management (OBFM).
3. The FYs 2011 through 2013 ALJs Available figures were provided by OBFM.
4. The FY 2010 ALJ Productivity figure was rounded. The FYs 2011 through 2013 ALJ Productivity
   figures were provided by OBFM.
5. Total ALJ Dispositions for FYs 2011 through 2013 were calculated by multiplying available ALJs
   x ALJ productivity x number of workdays in the year (250 days per year). In FY 2010, SSA’s ALJ
   productivity calculation included only 249 days because of an extra holiday.
6. ODAR provided the FYs 2011 through FY 2013 Senior Attorney Adjudicator Dispositions
   projections. We describe these dispositions later in the report.
7. Total Dispositions is the sum of Total ALJ Dispositions and Senior Attorney Adjudicator
   Dispositions.
8. We calculated Year-End Pending by adding projected receipts to the Beginning Balance level
   and subtracting Total Dispositions for each FY.

SSA’S ROLE IN BACKLOG FACTORS

SSA has a varying level of influence over the backlog factors used in our calculation
(see Figure 1). For example, SSA has influence over ALJ productivity and the
continuation of the Senior Attorney Adjudication initiative. SSA has less influence over
the number of incoming hearing-level receipts, since according to SSA, receipts depend
primarily on the economy’s status. 2 In addition, SSA has less control over ALJ
availability, which is dependent on (1) funds to hire additional ALJs and (2) a pool of
qualified candidates. Funding is both outside and within SSA’s control. While Congress
2
  While the overall volume may be outside SSA’s control, the flow can be moderated based on disability
determination services’ (DDS) ability to process incoming cases. However, the States are facing
increasing initial claim backlogs due to the economy’s status. See SSA OIG reports, The Social Security
Administration’s Response to State Furloughs Impacting its Disability Programs (A-01-11-11116),
March 2011, and The Social Security Administration’s Strategy for Reducing the Initial Claims Backlog
(A-07-10-10162), April 2011.


ODAR’s Hearings Backlog and Processing Times (A-12-11-21192)                                        3
determines the level of funding for SSA operations, the Agency can control how it
allocates the funds. The Office of Personnel Management (OPM) 3 screens ALJs and
develops a roster of eligible ALJ candidates to address SSA’s needs.

                    Figure 1: Agency Influence over Factors Affecting
                            the Pending Hearing Backlog Goal




3
 Applicants for an ALJ position must meet experience and licensure requirements and complete an
Accomplishment Record, a Written Demonstration, and a Structured Interview. Eligible candidates are
placed on the ALJ register, which is used as the source of names to make referrals to agencies for
employment consideration when they have entry-level ALJ vacancies to fill. Names are referred in
numerical score order. It is the responsibility of the agencies to make selections from the list of
candidates referred for employment consideration from among the highest three available names,
pursuant to 5 C.F.R. § 332.404, taking into consideration veterans' preference rules regarding order of
selection (see Jobs for Veterans Act, Pub. L. No. 107-288, 116 Stat. 2033, which amended title 38 U.S.C.
§4214). It is OPM's responsibility to ensure that the ALJ register maintains a sufficient number of
qualified ALJ candidates to meet the projected hiring needs of agencies, including enabling agencies to
have an adequate number of choices for each position to be filled. Consequently, OPM will periodically
reopen the ALJ examination as the need arises.


ODAR’s Hearings Backlog and Processing Times (A-12-11-21192)                                        4
BACKLOG FACTORS INFLUENCED BY SSA

SSA has greater influence over ALJ productivity and the continuation of the Senior
Attorney Adjudication initiative. A 1-percent decrease in ALJ productivity or a 3-percent
decrease in SAA dispositions would cause ODAR to miss its 2013 pending hearings
backlog goal.

ALJ Productivity

ODAR has made great strides in increasing ALJ productivity. 4 As the COSS noted at a
March 2011 hearing, 74 percent of ALJs decided between 500 and 700 cases in
FY 2010, an increase from late 2007 when less than half did so. 5 ALJ productivity,
measured as the number of cases decided per day per ALJ, rose from 2.19 in FY 2007
to 2.38 in FY 2010. 6 Through the first 6 months of FY 2011, ALJ productivity was higher
than projected, at 2.45 dispositions per day per ALJ. However, the President’s FY 2012
Budget for SSA assumed a 1-percent drop in ALJ productivity by 2013. ODAR believes
a 1-percent drop would come from two factors.

    1. ODAR’s combined screening efforts are expected to change the mix of cases
       heard by ALJs. 7 These screening will remove the easier cases from the backlog,
       leaving the more difficult cases for the ALJs and thereby suppressing further ALJ
       productivity increases.

    2. Further expansion of the aged case initiative may negatively affect ALJ
       productivity. Historically, ODAR’s aged case goal target comprised a relatively
       small amount of its overall dispositions. However, ODAR’s 725-, 750-, or
       775-day-old cases represent a much larger portion of its pending workload
       relative to its other aged case goals. Aged cases generally require greater
       development because of more complex issues, thereby requiring more time.
       More time equates to diminished productivity.




4
 In an October 2007 memorandum, ODAR’s Chief ALJ identified expectations regarding the services
ALJs provide to the public. Mainly, he asked ALJs to issue 500 to 700 legally sufficient decisions each
year, act on a timely basis, and hold scheduled hearings unless there is a good reason to postpone or
cancel. SSA considers the 500 minimum decisions a goal, not a quota.
5
 See Statement of the Record of Michael J. Astrue, Commissioner of Social Security, before the
Committee on Appropriations, Subcommittee on Labor, Health and Human Services, Education, and
Related Agencies, March 9, 2011.
6
 See SSA OIG, Congressional Response Report: Hearing Office Disposition Rates (A-07-10-21015),
January 2010.
7
  ODAR’s senior attorney adjudicators screen cases for on-the-record (OTR) decisions. We discuss this
initiative in the next section.


ODAR’s Hearings Backlog and Processing Times (A-12-11-21192)                                          5
Under our 2012 budget backlog projections, while SSA can still meet its goal with this
planned 1-percent decrease in ALJ productivity, a further decline in ALJ productivity of
1 percent from FYs 2011 through 2013 would increase the projected hearings backlog
to about 484,600 cases at the end of FY 2013 (see Table 2). Accordingly, a 2-percent
decline would result in about 507,700 cases and a 3-percent decline would result in
about 530,700 pending cases.

                              Table 2: ALJ Productivity Projections
                                                     Year End Pending
                                    Current           1%          2%              3%
                        FY        Projections       Decline     Decline         Decline
                 2013               461,586         484,631     507,675         530,718

SAA Dispositions

Hearing office management determines how much time SAAs dedicate to adjudication
versus other duties. In FY 2010, SAAs issued 54,186 OTR decisions, representing
about 7.3 percent of all dispositions.

In our 2010 hearings backlog review, we noted that ODAR would need to extend the
SAA program through 2013 for the Agency to gain the full benefit of this initiative. On
April 4, 2011, SSA issued a final rule extending the sunset date of the SAA authority to
August 9, 2013, 8 ensuring the program would run almost the full duration of the 2013
backlog plan. 9

As noted in our backlog projections (see Table 1), SAA decisions are projected to
decline from FY 2010 levels in FYs 2011 to 2013. ODAR is projecting the number of
SAA decisions to decrease once the number of older cases requiring an easier OTR
decision diminishes. ODAR managers stated some of the older cases could be
resolved more easily with updated medical evidence since the claimant’s medical
condition often worsened.

However, in FYs 2009 and 2010, ODAR exceeded its projected number of SAA
dispositions, with SAA dispositions exceeding projections by about 3 and 9 percent for
FYs 2009 and 2010, respectively. For example, ODAR originally projected 49,800 SAA
decisions in FY 2010, and later exceeded this goal by about 4,400 cases. Hence,
ODAR may exceed these projections again. Though in the first 6 months of 2011,
SAAs had decided slightly more than 26,100 cases, which would put them on pace to
meet the FY 2011 goal.




8
    Federal Register (FR), 76 FR 18383, April 4, 2011.
9
 We are completing work on a separate report we will issue later this year, Senior Attorney Adjudicator
Program (A-12-10-11018).


ODAR’s Hearings Backlog and Processing Times (A-12-11-21192)                                          6
Under the 2012 budget backlog projections, if ODAR has a 1-percent reduction in SAA
dispositions from FYs 2011 through 2013, the model projects a corresponding level of
about 463,000 pending hearing cases at the end of FY 2013 (see Table 3). A 2-percent
reduction in SAA dispositions will still keep SSA below its goal. However, a decrease of
3 percent will result in slightly more than 466,000 pending cases.

           Table 3: Senior Attorney Adjudicator Disposition Projections
                                           Year End Pending
                             Current        1%          2%           3%
                   FY      Projections    Decline     Decline      Decline
            2013             461,586      463,097     464,607      466,117

BACKLOG FACTORS MORE DEPENDENT ON OUTSIDE ISSUES

While ODAR has made progress, it faces significant challenges in meeting the 2013
goals. For instance, small variances in hearing receipts can affect ODAR’s ability to
meet its 2013 pending backlog goal. In addition, SSA relies on both the Congress and
OPM to ensure it has sufficient resources and small changes in ALJ availability can
similarly cause ODAR to miss its hearings backlog goal.

Hearing Receipts

SSA’s projections show a decline in the number of hearing receipts in FYs 2011 through
2013. SSA projects hearing receipts to peak in FY 2011 with 777,300 cases. In
addition, SSA expects receipts to drop in FY 2013 by almost 95,000 cases from the
FY 2011 level. As we noted earlier, receipts depend on the state of the economy as
well as the operations of the DDSs. Other factors may also increase hearing receipts.
For example, during the first 8 months of FY 2011, ODAR received approximately
47,000 more receipts than expected, which ODAR managers attributed in part to a
higher rate of appeal on DDS denials.

Using the 2012 budget backlog projections, SSA’s ability to achieve its 2013 pending
hearings backlog goal (466,000 cases) will be at risk if the Agency receives 1 percent
more hearing receipts each year from 2011 through 2013 than projected. We
determined a 1-percent increase in receipts would cause the number of pending cases
to exceed the 2013 goal by about 17,700 cases (see Table 4). A 2-percent increase in
receipts would result in about 39,800 more cases, and a 3-percent increase would result
in about 68,500 more cases.

                             Table 4: Receipt Projections
                                            Year End Pending
                             Current         1%          2%          3%
                   FY      Projections    Increase    Increase    Increase
            2013             461,586       483,703     505,819     534,535




ODAR’s Hearings Backlog and Processing Times (A-12-11-21192)                         7
Allocation of Funding

In March 2011, the COSS stated that without the level of funding in the President’s
2012 Budget, it was highly likely that SSA would miss its goal of eliminating its hearings
backlog in 2013. 10 After the extended Continuing Resolution, SSA’s budget for FY 2011
was about $1 billion less than the President’s budget. At the time of our review, ODAR
managers were still adjusting funding priorities, so it was not clear what affect this
budget reduction would have on ODAR’s operations. However, we have determined
that ODAR will miss its 2013 pending hearings backlog goal if projected receipts
increased by 1 percent or ALJ availability drops by 1 percent.

ODAR took several steps earlier to address a smaller 2011 budget. Since July 2010,
ODAR implemented a headquarters and regional hiring freeze. Compared to our
previous report, ODAR’s backlog plan reduced the number of available ALJs to work
down the backlog, and consequently, the margin for meeting the backlog goal narrowed
by about 60,000 cases. In addition, ODAR management stated the Agency would open
only 8 of the 16 hearing offices planned for FY 2011. 11 Further, in FY 2011, the Agency
discontinued the Operations Overtime Assistance initiative, 12 which assisted ODAR with
folder assembly and other grade-appropriate tasks 13 at the most heavily affected
hearing offices.

SSA may have other opportunities to redirect resources and even reinitiate overtime
support for ODAR from other components, though budget constraints affect all SSA’s
operations. Hence, borrowing resources from another component may affect other
Agency workloads, such as processing initial disability applications.

Available ALJs

In FY 2009, as a result of additional Agency funding, ODAR increased the number of its
ALJs to approximately 1,200, and its hearing office managers and support staff to about
6,200. This brought ODAR’s national staffing ratio to about 5.1 staff per ALJ, exceeding



10
 See Statement for the Record of Michael J. Astrue, Commissioner of Social Security, before the
Committee on Appropriations, Subcommittee on Labor, Health and Human Services, Education, and
Related Agencies, March 9, 2011.
11
   In some cases, SSA converted a satellite hearing office to a full hearing office to allow claimants in the
affected areas access to an ALJ.
12
     See Appendix C for more information on this initiative.
13
    Workload tasks include the following: folder assembly, formatting compact discs, associating paper
and electronic mail, application and query printing, photocopying records for expert witnesses, scanning,
ALJ folder preparation, alphabetizing, mailing decisions, photocopying for consultative exam requests,
filing closed files, folder audit or inventory, reception duties, scheduling, noticing, creating barcodes,
mirroring, and filing ALJ folders. This overtime initiative assisted with over 225,000 workload tasks in
FY 2010.


ODAR’s Hearings Backlog and Processing Times (A-12-11-21192)                                              8
the Agency’s national goal of 4.5 staff per ALJ at some hearing offices. At the time of
our review, ODAR noted its staff-per-ALJ ratio was 4.5, which it hoped to maintain at the
regional level if not the hearing-office level. 14

SSA assumed an annual attrition rate of 60 ALJs and expected to hire 70 ALJs in
FY 2011, thereby increasing the ALJ ranks by 10 positions. As outlined in the FY 2012
budget proposal, SSA also planned to hire 51 ALJs in FY 2012 and 65 in FY 2013.
However, during the first half of FY 2011, ODAR lost 48 ALJs through attrition, which
was more than anticipated. With increased receipts and higher ALJ attrition, ODAR
plans to hire 130 ALJs this FY. With the additional ALJ hiring, ODAR may also need to
hire additional support staff. The FY 2012 budget allowed hiring for 336 support staff at
the 8 new hearing offices being opened in FY 2011. At the time of our review, ODAR
did not have staffing plans for FY 2012 and beyond, as staffing plans are developed
before the start of each FY.

According to our 2012 budget backlog projections, SSA’s ability to achieve its 2013
backlog goal will be at risk if the number of available ALJs is 1 percent less per year
than projected from FYs 2011 through 2013 (see Table 5). If the number of available
ALJs declined by 1 percent from FYs 2011 through 2013, the year-end pending cases
for FY 2013 would rise to about 484,600 cases. A 2-percent decrease would result in
about 507,700 pending cases, and a 3-percent decrease would result in about
530,700 pending cases.

                              Table 5: ALJ Availability Projections
                                                    Year End Pending
                                   Current           1%          2%                3%
                Fiscal Year      Projections       Decline     Decline           Decline
               2013                461,586         484,631     507,675           530,718

ACHIEVING THE TIMELINESS GOAL

ODAR’s FY 2013 timeliness goal is to reduce its APT 15 to 270 days. Trends since the
beginning of FY 2009 show that the APT for closed cases has decreased by 25 percent,
and the AAP 16 for open cases has decreased by about 32 percent (see Figure 2). A
number of factors allowed ODAR to achieve this success, such as re-allocating

14
  Adequate staffing is an important part of ALJ productivity. In our February 2010 audit, Hearing Office
Performance and Staffing (A-12-08-28088), we found that hearing offices with adequate staffing ratios
and the right mix of staff were factors in hearing office performance. For instance, hearing offices that
met or exceeded ODAR's goal of 1.5 decision writers per ALJ had an average disposition rate nearly
9 percent higher than hearing offices that had a ratio less than the goal.
15
  ODAR calculates processing time for closed cases by determining the number of days from the request
for hearing date through the date of disposition. ODAR’s national APT is a calculation of all the closed
cases during each FY.
16
   To calculate the average age of pending, ODAR determines the time from the request for hearing date
to the last day of the reporting period, divided by the subsequent application closing pending count.


ODAR’s Hearings Backlog and Processing Times (A-12-11-21192)                                            9
resources, 17 funding under the American Recovery and Reinvestment Act (ARRA) 18 in
FYs 2009 and 2010, and implementing backlog initiatives. 19

                                    Figure 2: Trends in Average Processing Time and Average Age of Pending
                                                                              (Since October 2008)
                                         10.00%
     Percent Change Since October 2008




                                          5.00%
                                                    APT 476 days
                                          0.00%
                                                    AAP 313 days
                                          -5.00%

                                         -10.00%

                                         -15.00%

                                         -20.00%                                                                                     APT 359 days

                                         -25.00%

                                         -30.00%
                                                                                                                            AAP 212 days
                                         -35.00%
                                                                                                 Jan-10




                                                                                                                                      Jan-11
                                                            Jan-09




                                                                              Jul-09




                                                                                                                   Jul-10
                                                                     Apr-09




                                                                                                          Apr-10




                                                                                                                            Oct-10
                                                   Oct-08




                                                                                        Oct-09




                                                                                       APT       AAP

AVERAGE PROCESSING TIME

ODAR has set benchmarks for processing stages as the cases move through the
hearing office. 20 The purpose of these benchmarks is to ensure timely case movement
and proper management of the pending workloads to prevent bottlenecks in the hearing
office process. If a case meets all the benchmark goals, the processing time should
take approximately 270 days per case.


17
 See Statement of the Record of Michael J. Astrue, Commissioner of Social Security, before the
Committee on Appropriations, Subcommittee on Labor, Health and Human Services, Education, and
Related Agencies, March 9, 2011.
18
   ARRA was signed into law on February 17, 2009, Pub. L No. 111-5, 123 Stat. 115, 185-186, Division A,
Title VIII Social Security Administration (2009). One goal of ARRA funding was to preserve and create
jobs. ARRA provided SSA with $500 million to process the increasing disability and retirement workloads
caused in part by the economic downturn and the leading edge of the baby boomer retirements. See SSA
OIG, The Office of Disability Adjudication and Review’s Staffing Plans under the American Recovery and
Reinvestment Act (A-12-09-29140), December 2009.
19
  We conducted a number of audits on ODAR’s backlog initiatives. See Appendix C for more information
on these initiatives and the related OIG reviews.
20
      See Appendix D for more information on Quality Case Processing Benchmarks.



ODAR’s Hearings Backlog and Processing Times (A-12-11-21192)                                                                                   10
Various SSA initiatives, including the Video Hearing, National Hearing Center, and
Senior Attorney Adjudicator initiatives, increased ODAR’s ability to assist hearing offices
with significant backlogs while adding new resources. For instance, excessive backlogs
from one hearing office could be handled by other offices via video hearings, allowing
more timely hearings for all claimants involved. Moreover, SAAs located nationwide
similarly assisted backlogged offices while deciding OTR cases more quickly than cases
requiring a hearing.

The APT has dropped 117 days since the start of FY 2009. SSA's APT was 476 days in
October 2008, peaked at 505 days in April 2009, and started to decrease in June 2009
(see Figure 3). With the exception of January 2010 and January 2011, the APT has
steadily decreased since June 2009.

While the Agency has made progress in its timeliness measure, ODAR will need to
reduce its APT an average of 3 days each month for the next 30 months to meet its goal
of 270 days. Our analysis of recent trends shows that ODAR has reduced APT an
average of about 4 days each month since October 2008.

                                           Figure 3: Trend in Average Processing Time
                                                       for Hearing Requests
                   600

                             476 days
                   500
  Number of Days




                   400

                                                                                                                                                  359 days
                   300

                   200

                   100

                    0
                                  Dec-08




                                                    Apr-09




                                                                      Aug-09




                                                                                        Dec-09




                                                                                                          Apr-10
                         Oct-08




                                                                               Oct-09
                                                             Jun-09




                                                                                                                   Jun-10

                                                                                                                            Aug-10




                                                                                                                                              Dec-10
                                           Feb-09




                                                                                                 Feb-10




                                                                                                                                     Oct-10




                                                                                                                                                       Feb-11




AVERAGE AGE OF PENDING WORKLOAD

ODAR has also made progress in reducing the average age of its pending workload.
The number of hearing offices with an AAP of 270 days or more has decreased since
FY 2007 (see Figure 4). In FY 2007, about 79 of the 141 hearing offices had an AAP of
more than 270 days. In FY 2010, only 21 of the 157 hearing offices had an AAP of
more than 270 days, a 73-percent decrease from FY 2007.



ODAR’s Hearings Backlog and Processing Times (A-12-11-21192)                                                                                                    11
ODAR’s efforts under the Aged Case Workload initiative 21 have contributed to the
continued reduction of open cases’ AAP. In FY 2007, SSA began the initiative with
emphasis on processing the oldest cases in the backlog, as part of the first steps to
decrease overall processing time. In FY 2007, ODAR identified 63,770 cases that
would be 1,000 days old or older by the end of the FY. Thereafter, the Agency
established targets to eliminate an aged workload for each FY. At the beginning of
FY 2011, ODAR focused on processing the 106,715 cases that would be 775 days old
or older by the end of FY 2011. As of March 2011, ODAR reported it had reduced this
number to about 18,100 cases.


                         Figure 4: Average Age of Pending at the Hearing Offices
                                          FY 2007 vs. FY 2010

                   160
                                                                     13 %
                   140
                   120
                                      56%
                   100
                    80
 Hearing Offices




                                                                     87 %
                    60
                    40                44%
                    20
                     0
                                   FY 2007                         FY 2010

                                  0 - 270 days         > 270 days (Backlog)

                         Note: ODAR opened 16 Hearing Offices between FYs 2007 and 2010.




21
       See SSA OIG, Aged Claims at the Hearing Level (A-12-08-18071), September 2009.


ODAR’s Hearings Backlog and Processing Times (A-12-11-21192)                               12
                                                               Conclusions
We determined that, based on current projections, ODAR can still meet its
2013 pending hearings backlog goal. We also found ODAR made progress in reducing
pending hearings and improving timeliness, even with SSA’s varying level of influence
over certain backlog factors. However, SSA is facing significant budgetary challenges
in meeting the 2013 goal. Based on our 2012 budget backlog projections, SSA will miss
its goal to eliminate its pending hearing backlog by 2013 if ALJ availability is 1 percent
lower than projected. Moreover, a 1-percent variance in projected receipts or ALJ
productivity could cause SSA to miss its 2013 pending hearings backlog goal.
Continued diligence by Agency managers, ALJs, and staff; ongoing flexibility in the use
of available resources; and an improving economy will enhance ODAR’s ability to
eliminate the backlog by 2013.




ODAR’s Hearings Backlog and Processing Times (A-12-11-21192)                           13
                                         Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Initiatives Designed to Reduce and Eliminate the Hearings Backlog
APPENDIX D – Benchmarks for Quality Case Processing




ODAR’s Hearings Backlog and Processing Times (A-12-11-21192)
                                                                     Appendix A

Acronyms
    AAP               Average Age of Pending
    ALJ               Administrative Law Judges
    APT               Average Processing Time
    ARRA              American Recovery and Reinvestment Act
    CFR               Code of Federal Regulations
    COSS              Commissioner of Social Security
    CPMS              Case Processing and Management System
    DDS               Disability Determination Services
    FR                Federal Register
    FY                Fiscal Year
    MER               Medical Evidence of Record
    OBFM              Office of Budget, Finance and Management
    ODAR              Office of Disability Adjudication and Review
    OIG               Office of the Inspector General
    OQP               Office of Quality Performance
    OPM               Office of Personnel Management
    OTR               On-the-Record
    Pub. L. No.       Public Law Number
    SAA               Senior Attorney Adjudicator
    SSA               Social Security Administration
    USC               United States Code
    VSU               Virtual Screening Unit




ODAR’s Hearings Backlog and Processing Times (A-12-11-21192)
                                                                       Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable laws and Social Security Administration (SSA) policies and
    procedures, including the Office of Disability Adjudication and Review’s (ODAR)
    Hearings, Appeals and Litigation Law Manual.

•   Reviewed previous Office of the Inspector General reports.

•   Consulted with SSA and ODAR managers to obtain updated information on the
    status of the pending hearings backlog plan. Requested copies of budget
    projections, disability determination services workloads, and hiring plans.

•   Reviewed the Agency’s backlog reduction initiatives to identify those related to the
    pending hearings backlog.

•   Analyzed the assumptions the Agency used to project the pending hearings backlog
    through Fiscal Year (FY) 2013, particularly as it related to hearing receipts,
    administrative law judge (ALJ) availability, ALJ productivity, and workloads under the
    Senior Attorney Adjudicator initiative. In the case of FY 2010, we obtained the
    actual hearing receipts, ALJ availability, ALJ productivity, and workloads under the
    Senior Attorney Adjudicator initiative as reported by the Agency and used this
    information as part of our review of future expectations.

•   Examined scenarios with both reduced and increased hearing receipts, ALJ
    availability, and both ALJ and senior attorney adjudicator productivity to determine
    the effect on the pending hearings backlog by FY 2013.

•   Reviewed case statistics, including month-to-month pending, average processing
    times, and average age of pending for the last 3 years.

We found that FY 2010 data were sufficiently reliable to meet our objective. However,
as noted in the report, future estimates are subject to change based on a number of
cited factors, as well as other potential factors not enumerated here. The entity audited
was the Office of the Deputy Commissioner for Disability Adjudication and Review. We
conducted this performance audit from February through May 2011 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.



ODAR’s Hearings Backlog and Processing Times (A-12-11-21192)
                                                                                Appendix C

Initiatives Designed to Reduce and Eliminate
the Hearings Backlog
The Office of Disability Adjudication and Review (ODAR) has implemented a number of
initiatives related to assisting hearing offices in processing its workload, including the
(1) Aged Case Workload, (2) National Hearing Center (NHC), (3) Video Hearing,
(4) Senior Attorney Adjudicator, and (5) Operations Overtime Assistance.

AGED CASE WORKLOAD INITIATIVE

In Fiscal Year (FY) 2007, the Agency began the Aged Case Workload initiative, which
emphasized processing the oldest cases in the backlog. In FY 2007, ODAR identified
63,770 cases that would be 1,000 days old or older by the end of the FY. The Agency
established a target to eliminate a specific aged workload for each FY thereafter. At the
beginning of FY 2011, ODAR focused on the 106,715 cases that would be 775 days old
or older by the end of FY 2011. As of March 2011, ODAR reported it had reduced this
number to about 18,100 cases.

NHC INITIATIVE

NHCs are part of the Agency's strategy to address the historic hearings backlog and
reduce case processing time by increasing adjudicatory capacity and efficiency with a
focus on an electronic hearings process. At an NHC, ALJs hold all hearings using video
equipment installed in each administrative law judge’s (ALJ) office, thereby eliminating
potential issues with hearing room capacity. This initiative was implemented with the
opening of the fifth and largest NHC in St. Louis, Missouri, in July 2010. 1

VIDEO HEARING INITIATIVE

The goal for the Video Hearings initiative was to increase the number of video hearings
and subsequently decrease ALJ travel and increase ALJ productivity. The Social
Security Administration (SSA) implemented this initiative by increasing the number of
video hearing units in hearing office and permanent remote sites. The number of
hearings held by video increased by 260 percent over a 4-year period, from 23,418 in
FY 2005 to 84,121 in FY 2009. 2 Approximately 18 percent of all hearings was
conducted by video in FY 2009, and another 20 percent of all hearings in FY 2010.


1
 Other NHCs are located in Albuquerque, New Mexico; Baltimore, Maryland; Chicago, Illinois; and Falls
Church, Virginia. We are completing a separate review of the NHCs that we will issue in FY 2012.
2
 See SSA OIG, Use of Video Hearings to Reduce the Hearing Case Backlog (A-05-08-18070),
April 2011.


ODAR’s Hearings Backlog and Processing Times (A-12-11-21192)                                       C-1
SENIOR ATTORNEY ADJUDICATOR INITIATIVE

The Senior Attorney Adjudicator initiative was reinstated in November 2007 and was
designed to improve the disability determination process and increase adjudication
capacity. This initiative allows non-ALJs to issue fully favorable on-the-record decisions
to expedite the decision and conserve valuable ALJ resources for the more complex
cases that require a hearing. In FY 2010, the Agency expanded the Senior Attorney
Adjudicator initiative by implementing a Virtual Screening Unit (VSU). Nationwide,
ODAR had detailed approximately 100 Senior Attorneys in hearing offices to the VSU to
screen cases under directions from its Headquarters in Falls Church, Virginia. 3 Cases
are selected using profiles developed by the Office of Quality Performance (OQP)
designed to identify cases with a high probability of a favorable decision. OQP staff
also screen and share cases that meet these criteria with ODAR for processing by
senior attorney adjudicators. In April 2011, the Senior Attorney Adjudicator program
was extended for an additional 2 years. 4

OPERATIONS OVERTIME ASSISTANCE INITIATIVE

ODAR implemented the Operations Overtime Assistance initiative to use the resources
of other SSA components to perform folder assembly and other grade appropriate tasks
on overtime in the most heavily affected hearing offices. To maximize the number of
legally sufficient decisions ALJs issue, ODAR must first fill the ALJ dockets. The
Commissioner increased the overtime allocation for hearing offices to assist with these
duties. One of the primary uses was case preparation. This initiative, which assisted
ODAR with more than 225,000 workload tasks in FY 2010, was discontinued for
FY 2011.




3
  We are completing a separate review of the Senior Attorney Adjudicator initiative that we will issue later
this year.
4
 To increase the number of issued decisions, SSA’s final rule extending the sunset date of the Attorney
Adjudicator authority to August 9, 2013 was published on April 4, 2011 in the Federal Register,
76 FR 18383.


ODAR’s Hearings Backlog and Processing Times (A-12-11-21192)                                             C-2
                                                                                  Appendix D

Quality Case Processing Benchmarks
   Case Processing and           Benchmark
   Management System              (Calendar
      (CPMS) Codea                  Days)                             Comments
                                                 Receipt of claim file through auto establish in
 Master Docket                        21
                                                 CPMS
 Pre-hearing and Post-                           Requests for prior files
                                      28
 hearing – Prior Files                           (diary for 28 days)
 Pre-hearing and Post-                           Requests for MER from treating sources
 hearing – Medical                    21         (diary for 10 days for follow up)
 Evidence of Record (MER)
 Pre-hearing and Post-                           21 days to be sure the CE is scheduled and
 hearing – Consultative              21/63       63 days to be sure the CE report is received at the
 Examinations (CE)                               hearing office
                                                 Cases transferred to other hearing offices for case
                                                 preparation or decision drafting should be
 Temporary Transfer                   42
                                                 completed and returned to the original hearing
                                                 office within 42 days
                                                 Pre-hearing review by administrative law judge
 Decision Writer – Unpulled
                                       7         (ALJ)/senior attorney adjudicator/attorney
 File Review
                                                 assistant/paralegal assistant drafting decision
                                                 Case workup
 Work-up                               7
                                                 (assembly/development/analysis)
 ALJ Review – Pre-Hearing              7b        ALJ review (pre-scheduling)
 ALJ – Post Hearing                              ALJ review (post-hearing)
                                       7b
 Review
 ALJ Writing Decision/                           ALJ drafting decision
 Assigned Writer Personal             14
 Computer
 Decision Writer Personal                        Drafting decision by senior attorney
 Computer/ Decision Writer             7         adjudicator/attorney assistant/paralegal assistant
 Writing Decision
                                                 Editing decision by ALJ/senior attorney
 Edit                                  7         adjudicator/attorney assistant/paralegal assistant
                                                 drafting decision
                                                 Typographical corrections to be corrected on ALJ
 Corrections                           7
                                                 decision
                                                 Case in the ALJ’s office waiting final review and
 Sign                                  1b
                                                 signature
 Mail                                  1         Awaiting mailing of ALJ decision
Table Notes:
a. Each case does not necessarily go through every step. For instance, a case may not require a CE. In
addition, not all steps in the hearing process are shown among these benchmarks. For example, the
scheduling of a hearing is not included among the steps. Hearing offices attempt to schedule hearings at
least 3 months in advance.
b. ALJ on travel docket/unavailable, timeframe begins upon return to hearing office.



ODAR’s Hearings Backlog and Processing Times (A-12-11-21192)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
